No. 19-1100

In the Supreme Court of the United States
Leroy D. Cropper,
Petitioner,
v.
State of Arizona,
Respondent.

CERTIFICATE OF WORD COUNT
As required by Supreme Court Rule 33.1(h), I certify that this Brief of Amici Curiae
John H. Blume, Stephen P. Garvey, Sheri Lynn Johnson, Paul Marcus, Marla
Sandy, Scott E. Sundby, and Elizabeth S. Vartkessian in Support of Petition for
Write of Certiorari contains 2,737 words, excluding the parts of the document that
are exempted by Supreme Court Rule 33.1(d).
I declare under penalty of perjury that the foregoing is true and correct.
Executed on April 8, 2020.
/s/ John R. Mills
John R. Mills
PHILLIPS BLACK, INC.
1721 Broadway, Suite 201
Oakland, CA 94612
(888) 532-0897
j.mills@phillipsblack.org
Counsel for Amici Curiae

